<html>
<title> - GETTING INCENTIVES RIGHT: CONNECTING LOW-INCOME INDIVIDUALS WITH JOBS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  GETTING INCENTIVES RIGHT: CONNECTING
                    LOW-INCOME INDIVIDUALS WITH JOBS

=======================================================================

                                 HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2016

                               __________

                            Serial 114-HR09

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                             U.S. GOVERNMENT PUBLISHING OFFICE
21-287                            WASHINGTON : 2016                             
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b8dfc8d7f8dbcdcbccd0ddd4c896dbd7d596">[email&#160;protected]</a>  

                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
DEVIN NUNES, California              CHARLES B. RANGEL, New York
PATRICK J. TIBERI, Ohio              JIM MCDERMOTT, Washington
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
CHARLES W. BOUSTANY, JR., Louisiana  RICHARD E. NEAL, Massachusetts
PETER J. ROSKAM, Illinois            XAVIER BECERRA, California
TOM PRICE, Georgia                   LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
TODD YOUNG, Indiana                  LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois
TOM RICE, South Carolina

                     David Stewart, Staff Director

         Janice Mays, Minority Chief Counsel and Staff Director

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                    VERN BUCHANAN, Florida, Chairman

KRISTI NOEM, South Dakota            LLOYD DOGGETT, Texas
JASON SMITH, Missouri                JOHN LEWIS, Georgia
ROBERT J. DOLD, Illinois             JOSEPH CROWLEY, New York
TOM RICE, South Carolina             DANNY DAVIS, Illinois
TOM REED, New York
DAVID G. REICHART, Washington

                            C O N T E N T S

                               __________
                                                                   Page

Advisory of March 3, 2016 announcing the hearing.................     2

                               WITNESSES

Kenyatta Brame, Executive Vice President, Cascade Engineering....    14
Barbara Doucet, Corporate Director of Human Resources, Omni 
  Hotels & Resorts...............................................    36
Christopher King, Senior Research Scientist and Lecturer, Ray 
  Marshall Center for the Study of Human Resources, University of 
  Texas at Austin................................................    20
Laurie Bouillion Larrea, President, Workforce Solutions Greater 
  Dallas.........................................................    44
Mark Wilson, President and CEO, Florida Chamber of Commerce......     6

                     SUPPLEMENTARY WITNESS MATERIAL

Kenyatta Brame, report...........................................    67
Christopher King, testimony......................................    96

                       SUBMISSIONS FOR THE RECORD

Affordable Housing Tax Credit Coalition, statement...............   104
APHSA, letter....................................................   107
Center for Law and Social Policy, statement......................   112
Azim Saju, statement.............................................   122
Philadelphia Works, Inc., letter.................................   125

 
                  GETTING INCENTIVES RIGHT: CONNECTING
                    LOW-INCOME INDIVIDUALS WITH JOBS

                              ----------                              


                         TUESDAY, MARCH 1, 2016

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room 1334, Longworth House Office Building, the Honorable Vern 
Buchanan, [Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                ___________

    Chairman BUCHANAN. The Subcommittee will come to order. 
Welcome to the Ways and Means Subcommittee on Human Resources 
hearing, on Getting Incentives Right: Connecting Low-Income 
Individuals with Jobs. Good morning. Welcome. First, let me say 
what an honor it is for me to be presiding over my first 
hearing as Chairman of the Ways and Means Human Resources 
Subcommittee. I'm looking forward to learning from and working 
alongside my colleagues on both sides of the aisle, addressing 
one of our nation's most pressing issues, that of helping 
people out of poverty into realizing the American Dream. I'm 
hopeful that we can work together in finding concrete solutions 
and offering real opportunities for people in need.
    Over the past year, this Subcommittee has heard from a wide 
array of voices on helping low-income individuals move up the 
economic ladder. However, a perspective not often considered 
when most of us discuss these issues is that of the employer. 
As a business owner myself, I know there is an important role 
we play in providing real work opportunities for job seekers to 
compete and succeed in the workplace. I've seen it first-hand 
how a job can change a person's outlook in life and shape a 
brighter future.
    With looming workforce shortages in the decades ahead, 
businesses are going to need all who can work to work. Yet we 
know all the working age adults who are in poverty, almost two 
in three that are in poverty, two in three are not working. The 
challenge is, how do we tap into this incredible work force and 
bridge the divide? I propose the answer lies in partnering with 
businesses and promoting work in our welfare programs.
    For welfare recipients engaging in work, increased economic 
mobility can lead to a more financially stable life. And for 
employers, finding and retaining a strong work force is 
necessary for long-term goals and success. By getting the 
incentives right to address the needs of both groups, that of 
the job-seeker and that of the job-creator, we can grow our 
economy, help people find and grow their careers, and move more 
American families out of poverty and up in the economic ladder.
    Today's hearing will highlight examples of how the public 
and private sector are partnering to encourage positive 
outcomes, when we move someone from welfare to work. And let me 
just say, as it relates to Florida, we have in Florida, we're 
growing at two to four--the country's growing at two percent, 
we're growing at four. We got a thousand people coming every 
day to Florida. And I can, I've gone through that before, being 
in business for 30, 40 years, where we're not, we don't have 
any workers. So this is a great opportunity to talk about this 
subject. Because it's critical to Florida and a lot of states. 
I'm sure Texas as well. I now yield to the distinguished Mr. 
Crowley, sitting for Ranking Member Mr. Doggett, for the 
purposes of an opening statement.
    Mr. CROWLEY. Thank you, Mr. Chairman. Congratulations on 
your first Subcommittee hearing.
    Chairman BUCHANAN. Congratulations for you to be in here, 
up here too.
    Mr. CROWLEY. Thank you. Let's not go into that right now. 
But a thousand people a day coming to Florida, 998 I think are 
coming from New York. So, you're welcome. We all agree that a 
good-paying job is the best way out of poverty. But the problem 
with the Temporary Assistance for Needy Families program right 
now isn't a problem with the incentives being right for 
individuals or employers. After all, low-income parents want to 
work and want a better life for themselves and for their 
families.
    Employers want to hire workers who can do the job and who 
can do it well. The problem is that the incentives are wrong 
for state governments. States are currently spending only eight 
percent of TANF funds, funds designated to move people from 
welfare to work, on work activities, even when you include all 
the activities related to TANF's core purposes, including the 
child care assistance low-income parents need in order to be 
reliable employees. States are still diverting more than half 
of their TANF funds to other purposes. It's especially 
frustrating that states aren't investing in work. Because today 
we know a lot more about the best ways to connect low-income 
parents with good, sustainable jobs that we, that, more than we 
did in 1996.
    Early welfare studies might have suggested that work first, 
pushing people into first available jobs, no matter how 
unstable or low-paying, was just as effective as education and 
training, even though that contradicts everything we know about 
valuable education, and how valuable education is in our modern 
economy. But further research has shown that the right 
education or a skill upgrade is just as valuable for welfare 
recipients as it is for everyone else. In fact, a new study of 
Colorado welfare recipients found that career oriented 
community college credentials, ranging from certification to 
associates' degrees, led to large and significant earnings 
gains.
    Unfortunately, the 12 month limit on education and training 
in the current TANF law strongly discourages this strategy, 
since these credentials often take longer than 12 months to 
earn. Community college is just one of many ways to help 
welfare recipients become the kind of employees that employers 
want to hire, to retain, and to promote. I'm looking forward to 
hearing from Dr. Christopher King about his research on two of 
the most promising strategies, lifting welfare recipients out 
of poverty, career pathways programs and two generation poverty 
reduction, which simultaneously helps parents and their 
children. Unfortunately states have not had an incentive to 
invest in these promising strategies, because we are not 
holding them accountable for their diversion of funds or for 
poor employment outcomes for welfare recipients.
    We should also not forget that TANF recipients are parents. 
And even the most motivated parents can't be reliable employees 
if they don't have access to quality child care. The 
Congressional Research Service estimates that only 17 percent 
of eligible families receive help from the Child Care Block 
Grant. And state TANF investment in child care has dropped off 
sharply since the 1990s. I have introduced legislation to 
guarantee access to quality child care for children under age 
four. Something that would simultaneously improve outcomes for 
children, as well as their working parents. I look forward to 
working with Chairman Buchanan to refocus TANF on work and hold 
states accountable for getting results. A lot of parents who 
want to make a better life for their families are counting on 
just that. And they're counting on us. So with that, Mr. 
Chairman, I yield back to you.
    Chairman BUCHANAN. Without objection, other members' 
opening statements will be made a part of the record. Today's 
witness panel includes five experts: Mr. Mark Wilson, President 
and CEO of the Florida Chamber of Commerce, represents over a 
100,000 businesses, a part of a federation in Florida. Mr. 
Blame is based in Grand Rapids, Michigan, with--he's Executive 
Vice President of Cascade Engineering. It's a global 
manufacturing company that started a welfare to career program 
almost two decades ago, as the way to tap into an underutilized 
population to fill a looming workforce shortage within the 
company. And has done that with hundreds of employees.
    So I'm really looking forward to your, your comments. Mr. 
King, a Senior Research Scientist and Lecturer of the 
University of Texas at Austin. He leads a team, designing and 
analyzing job strategies for low-skill, low-income parents. Ms. 
Barbara Doucet is Corporate Director of Human Resources, Omni 
Hotels and Resorts. Oversees hiring and training for the hotel 
in multiple states. She has forged critical relationships with 
local governments and schools, creating internships and 
training programs. Ms. Larrea is President of Workforce 
Solutions, in the Great Dallas Area. Oversees public funded 
employment and training programs, viewing employers as 
customers of these systems, in an effort to help low-income 
individuals in the Dallas region, help them to keep and obtain 
good jobs. Let us begin with Mr. Wilson, with--you may proceed 
with your testimony.

STATEMENT OF MARK WILSON, PRESIDENT AND CEO, FLORIDA CHAMBER OF 
                            COMMERCE

    Mr. WILSON. Thank you, Mr. Chairman, and thank you, 
distinguished members of this Committee. I thank you for the 
opportunity to appear before you today. My name is Mark Wilson, 
and as the Chairman said, I am the President and Chief 
Executive Officer of the Florida Chamber of Commerce. The 
Florida Chamber of Commerce is Florida's largest federation of 
employers, local chambers of commerce, trade associations. And 
we're focused entirely on securing Florida's future by 
advancing economic opportunity for all.
    In Florida, we create one out of every 11 new U.S. jobs. 
And as the Chairman said, we're adding a thousand new people a 
day. But I would be quick to add that the number one concern 
that I hear about from employers throughout our great state is 
the inability to find talent. And so what we have here before 
us today is a perfect match. We have employers that need to 
create jobs and we have people who need the skills and talent 
to fill those jobs. I'm very optimistic from what I've heard so 
far today.
    I know our nation has many challenges, but this Committee 
taking time to focus attention on issues such as generational 
poverty and on reforming our welfare program, is a major step 
in the right direction. And it is my honor to be part of this 
discussion today. In my view, the battle of this generation is 
between economic equality and economic opportunity. Between 
those who believe that everyone is entitled to equal outcomes 
and those who believe everyone should have an equal opportunity 
at earned success, unfortunately we will always have poverty. 
The kind that results from temporary setbacks, such as job 
loss, foreclosures, or unexpected challenges. And the Florida 
Chamber believes safety nets are in fact necessary to help 
return families to a productive, work-based solution. We can 
break the cycle, and create greater economic opportunities for 
the next generation.
    Much has been said about the one percent in this country. 
The one percent at the top. And I want to put on the record 
today, I think the one percent can largely take care of 
themselves. But what about the 20 percent at the bottom? I want 
to applaud you for focusing our attention on what can we do as 
a nation, as an employer community, to help those in the bottom 
20 percent. That's where our focus should be.
    To me and many of Florida's business leaders, breaking the 
cycle of generational poverty is not only a moral imperative, 
it's also a smart business decision. Almost half of all 
children born in generational poverty remain in poor economic 
conditions until adulthood. And in Florida, unfortunately, one 
in four Florida children are living in poverty today. Right 
now, approximately 3.7 million Floridians are on food stamps, 
and nearly 60 percent of Florida's 2.8 million students are 
eligible for free and reduced price lunch. More than 3.3 
million Floridians don't know where their next meal will come 
from.
    While Florida is home to more than 1.1 million Floridians 
with unique abilities, between the typical working ages of 16 
to 65, the Florida Chamber Foundation report that we recently 
did shows that a disproportionately high number of those are 
unemployed. Over 712,000 Floridians with unique abilities may 
actually be looking for work. So I ask you to please consider 
them as we forge solutions of welfare to work. To remain at a 
level of five percent unemployment in Florida, businesses need 
to create 800,000 new jobs by 2020 and two million new jobs by 
2030. And I say that to say that in that same year, one third 
of our current work force in Florida will likely be retired. 
This is why it's essential to help every Floridian who wants to 
find work find a job.
    Creating greater economic opportunity for everyone starts 
with a high quality education. And at the Florida Chamber, we 
believe that a quality education and workforce development 
system are the pathways to prosperity that will enable 
Floridians to compete in a global economy. The Florida Chamber 
Foundation's recent report, ``From Excuses to Excellence,'' 
shows that Florida student achievement has gone from being 
ranked 48th in America in graduation rates, to seventh in 
educational achievement.
    Schools thought to be stuck at the bottom because of 
poverty and other challenges have proved that all students can 
truly learn at higher rates. Through higher standards and the 
miracle of Florida's tax credit scholarship program, Florida's 
fourth graders are some of the best readers in the world. And 
Florida's African American students ranked number one in the 
nation in student achievement gains. Talent is replacing the 
tax incentive as the most important factor in economic 
development decisions. And this is a huge opportunity for those 
trying to work their way out of poverty.
    Some people say we have an unemployment problem. The truth 
is, we have a talent gap problem. And in Florida right now, we 
have 287,000 open jobs. There's a match that we can make here 
between those stuck in generational poverty and those employers 
who have those jobs. In closing, we must focus on smarter 
public policy that puts students first. We must put the next 
generation first. The Florida Chamber believes in the 
importance of this issue, both economically as well as morally. 
And I pledge to this Committee to be a leader with you, both in 
Florida and nationally, to invest real resources behind putting 
a long-term solution, to finally breaking the cycle of 
generational poverty, so that every Floridian and every 
American has the opportunity of achieving the American Dream. 
Again, thank you for focusing on one of America's best 
opportunities.
    [The prepared statement of Mr. Wilson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                ___________

    Chairman BUCHANAN. Thank you, Mr. Wilson.
    Mr. Brame, you can proceed with your testimony.

STATEMENT OF KENYATTA BRAME, EXECUTIVE VICE PRESIDENT, CASCADE 
                          ENGINEERING

    Mr. BRAME. Good morning, and happy Super Tuesday. I'd like 
to thank Chairman Vern Buchanan and the entire Subcommittee on 
Human Resources for giving me this opportunity to testify 
today. Once again, my name is Kenyatta Brame. I am the 
Executive Vice President for Cascade Engineering, a 
manufacturing company headquartered in Grand Rapids, Michigan. 
Founded in 1973, Cascade Engineering consists of nine 
businesses, with a core competency in manufacturing large-scale 
plastic injection molded parts. We are in many different fields 
and industries, including waste and recycling, valet, trash, 
agricultural and industrial material handling, automotive, 
truck and bus, office heating, polymer techs, and asset 
management.
    Cascade Engineering is a B Certified Corporation, and a 
Triple Bottom Line Company. This means we measure our 
performance in three specific areas: people, planet and profit. 
We believe that business is one of the most powerful forces on 
the planet and that we have a clear responsibility to make 
profits for our shareholders. And we have equal opportunity and 
responsibility for, to our employees, our community and our 
environment.
    At Cascade Engineering, we believe in breaking down 
barriers. These barriers including criminal background, racism, 
physical disabilities, and poverty, among many others. Today 
I've been asked to testify about our welfare to career program. 
We are very proud of this initiative, a program that partners 
businesses and state agencies to help identify, train, and 
provide support to individuals in poverty.
    We believe that given an opportunity, combined with proper 
training and the support of culture, individuals can transition 
from reliance on welfare to self-sustaining, long-term careers, 
at Cascade Engineering. This journey began in the mid-90s, when 
Fred Keller asked Ron Jimmerson, one of our Human Resource 
managers, ``What can we do to hire people on welfare?'' Ron was 
the right person to ask, because he had grown up in 
generational poverty and had an acute awareness and 
understanding of the difficulties welfare recipients faced.
    In the beginning, we had many setbacks, but we continued to 
learn from our mistakes. We continued to learn. Some of our 
welfare recipients had never worked in a manufacturing 
environment. Many of our supervisors had little experience or 
tolerance for working with individuals who had difficulty 
getting to work because of transportation, housing or child 
care issues. During this stage, we learned that employees on 
welfare could exceed if provided with clear expectations, 
needed resources, proper training, and appropriate work 
environment. At the same time, our leaders were being trained 
to better understand the needs of someone coming out of 
generational poverty. Although we were making great strides 
forward, we also learned that we needed a partner.
    In 1999, Joyce Gutierrez Marsh, from the Michigan 
Department of Human Services, or DHS, was assigned as a social 
worker to handle all of Cascade Engineering's welfare to career 
clients. Joyce relocated her office to Cascade Engineering, 
becoming the first social worker in the state of Michigan to be 
stationed at a business site. Joyce worked with Ron Jimmerson 
to develop an orientation process and a readiness assessment 
process for welfare recipients, to identify and avoid pitfalls 
before they started to work.
    To further assist the process, we developed several 
policies, including a rule that all HR representatives contact 
Joyce with important concerns related to our welfare to career 
employees. Problems related to attendance, tardiness or 
performance were identified and quickly handled when Joyce was 
involved. This collaboration was an immediate success and 
greatly reduced the high turnover we were previously seeing 
with our welfare to career clients.
    When Amy Valderas, when she registered for welfare, she was 
out of work, a single mother with three small children, living 
with her sister. She had no idea how was she going to make ends 
meet. She was hired by Cascade Engineering, enrolled in our 
welfare to career program, and now 16 years later, Amy is still 
with us, completely off welfare. She overcame the benefit 
cliff, as one of our star employees who is admired by her 
peers. She owns her own home, and two of her three children 
have already graduated from college. And this is just one of 
our many stories.
    In 2002, Cascade Engineering joined a new coalition of 
businesses working in concert with DHS, to expand the welfare 
to career model to other companies. This coalition is called 
The Source, and is comprised of 15 member companies. Last year, 
we serviced over 400 welfare to career clients. And the group 
has a 97 percent monthly retention rate. This is more than 
double the retention rate of all other DHS clients in the 
county.
    Currently Cascade Engineering has 84 employees involved in 
the welfare to career program. 37 of these individuals are 
still receiving some level of assistance, with 47 of these 
individuals no longer receiving any subsidy whatsoever. Over 
the last 17 years, we have positively impacted hundreds of 
people and their families. More importantly, our employees who 
have completed our welfare to career program are successful 
members of society who can take care of their families and 
provide them a better quality of life.
    In many cases, they are the first individuals in their 
families to break out of generational poverty. We are honored 
to be part of this special project, and look forward to 
continuing this work in breaking the cycle of generational 
poverty. Thank you.
    [The prepared statement of Mr. Brame follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                ___________

    Chairman BUCHANAN. Thank you, Mr. Brame.
    Mr. King, you may proceed, please.

    STATEMENT OF CHRISTOPHER T. KING, Ph.D, SENIOR RESEARCH 
 SCIENTIST AND LECTURER, RAY MARSHALL CENTER FOR THE STUDY OF 
         HUMAN RESOURCES, UNIVERSITY OF TEXAS AT AUSTIN

    Mr. KING. Thank you, Mr. Chairman, Members of the 
Subcommittee. It's an opportunity to be here, and share my 
thoughts. Five minutes is going to be tough. I'm an academic, 
but I'm going to do my best. So I guess the main message I have 
is that we now know a whole lot more about how TANF works. 
Welfare policies. We know a lot more about what effective 
workforce strategies look like. We know a lot more about how 
labor markets operate today than we did almost 20 years ago, 
when TANF came into being. And I think with that new knowledge, 
I think we can shape better policies and strategies for dealing 
with this environment, to help poor families succeed.
    That said, I think simply connecting the title of this 
hearing, welfare parents, with employers, is insufficient to 
make things work well for them. It probably never was. I think 
what we need are strategies that basically support parents to 
get the kind of education, training and credentials that 
employers are looking for. And we can do that by working 
together with employers and other public programs, like the 
Workforce Investment Act and Workforce Innovation and 
Opportunity Act programs.
    And we have some slides, which I'm sure--there we go. So 
first slide. I think the one--next slide.
    [Slide]
    One thing we do know is that if given the opportunity and 
given the supports--this is a slide from the Center for Budget 
and Policy Priorities--that poor moms will step up. Their 
behavior in the labor market looks no different than other 
women in the labor market these days. And that's encouraging. 
Right now, I think TANF does too little to help these families. 
And if we could tweak our policies a bit, even modestly, I 
think it could do much more, again, in tandem with connecting 
to employers and other public programs. And I'll get into some 
of that in just a minute.
    The evidence that we have about effective strategies, 
really, we're talking about career pathway strategies, that 
structure opportunities within community and technical 
colleges, that work for solutions, and other groups out there 
connect with. Also building in stackable credentials, that poor 
families can build to get towards better jobs, better pay, 
better career advancement opportunities. And these are also 
often connected with sectoral strategies. So focusing on things 
like health care, advanced manufacturing, high level 
construction, where we still have career advancement 
opportunities, and these families can move up.
    [Slide]
    And I'll move to the next slide. I'll cite one example of 
an excellent program that's operating in Austin, Texas, which 
the Ray Marshall Center, that I led for about 25 years, helped 
design this and other programs. So the top line shows the 
earnings for those who went through a career pathways sectoral 
strategy. The bottom line is basically a comparison group.
    So this is a rigorous evaluation piece. What you maybe 
can't see there is that we've got at least eight years of post-
program evidence on how these families are doing. The 
participants, relative to a comparison group. And you can see, 
that line is getting bigger over time. So again, the message 
is, a career pathway strategy ensconced in a sectoral strategy 
and with some bridge program help. Remedial education to help 
them get the basic skills up, it works. We also have some 
return on investment evidence that echoes that. Returns are 
very strong, and I can go into that in questions if you'd like. 
So that's one.
    Two, we also have been working on what are now called two-
generation strategies. I see TANF as being potentially an 
enormous opportunity to work both with parents and their 
children simultaneously, with quality human capital skills 
building interventions. We know that when we do that, we get 
good results over time. And we have research underway that's 
going to demonstrate that, I think, more clearly.
    [Slide]
    The next slide is maybe one example. This is a SNS 
framework from just across town. Different components of what a 
two-gen strategy could include. I'll go to the next one. This 
is a framework that we've used in the model that we designed 
for Tulsa, Oklahoma, working with their high-quality Head Start 
program there, and lining people up with, the parents up with a 
career pathway and a sectoral strategy in healthcare, with 
support from HHS here in Washington.
    [Slide]
    Next slide, this is kind of maybe a better concept for how 
all the pieces can be put together. What I will say is that the 
way TANF is currently structured, it's often difficult to do 
that. I'll wrap up my points. The thing I would leave you with 
is that labor markets today are very different than they were 
20 years, when we were thinking about TANF. We don't have as 
many career pathway opportunities. People get a job. If they're 
not in their right employer--the progressive ones that we have 
at this table--if they're not in the right high demand sector, 
they can be left basically moving back and forth and never 
making progress.
    So again, I encourage us to think about structuring our 
work participation requirements, keeping states from diverting 
resources, focusing more on building human capitol.
    Thank you.
    [The prepared statement of Mr. King follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                ___________

    Chairman BUCHANAN. Thank you, Mr. King.
    Ms. Doucet, you can proceed, please.

   STATEMENT OF BARBARA DOUCET, CORPORATE DIRECTOR OF HUMAN 
               RESOURCES, OMNI HOTELS AND RESORTS

    Ms. DOUCET. Good morning, Chairman Buchanan, and members of 
the Subcommittee on Human Resources. Thank you for the 
opportunity to speak to you today. My name is Barbara Doucet. I 
am the Corporate Director of Human Resources for Omni Hotels 
and Resorts, based in Dallas, Texas. Currently, I serve on the 
American Hotel and Lodging Association's Human Resource 
Committee, and as Board Member for Women with Promise. It is an 
honor to share with you Omni's success story of how we've 
connected low-income individuals with more than just jobs, but 
life-long careers in the hotel industry, at two of our 
properties in Dallas and Fort Worth.
    By way of background, Omni is a luxury hotel brand, with 60 
hotels in North America and over 18,000 associates. We pride 
ourselves in leaving a lasting impression with every guest by 
exceeding their expectations and inspiring and rewarding our 
associates. My tenure with Omni began in 2008 as the Director 
of Human Resources for the opening of the Omni Fort Worth 
hotel, a 614-room downtown property. After three years, I moved 
to open the Omni Dallas hotel, a 1001-room hotel located in 
downtown Dallas, connected to the Convention Center. Staffing a 
new hotel requires roughly 465 associates. It is no easy task, 
and can only be done successfully with the support of the right 
team. In my role at the Omni Fort Worth, I immediately 
recognized the need to seek out the right partnership that 
would help us be successful. Hence, the beginning of our long-
standing relationship with Workforce Solutions of Tarrant 
County.
    Partnering with Workforce Solutions, we worked diligently 
in developing various work subsidized programs coordinating 
job----
    Mr. RICE. Excuse me. Could you pull the microphone just a 
little closer, please?
    Ms. DOUCET. Sure.
    Mr. RICE. Thank you.
    Ms. DOUCET. Coordinating job fairs, and placement of 
interns. They screened and referred lower income job seekers 
and proved to be a constant pipeline of new applicants. As a 
result, the Omni Fort Worth hotel was honored as the 2010 
recipient of the Employer Award of Excellence for Workforce 
Solutions of Tarrant County, and I was happy to serve on the 
Tarrant County Workforce Improvement Committee. The Subsidized 
Employment Program provides on-the-job training, where low-
income candidates can perform the daily tasks of the jobs to 
which they would, could ultimately be hired. We were able to 
train and teach the skills required to be a successful room or 
laundry attendant, bar back, steward, or other critical roles 
within the hospitality industry.
    This model has been a great success for Omni, and is a 
source of pride for the company. If the individual was not 
hired into a permanent position, we worked with the candidates 
and their counselors to help identify other opportunities. 
While managing these individuals and programs does take time 
and resources, Omni encourages each property to be a leader in 
giving back to the greater community. So much so, this is one 
of our core values, local market leadership.
    The relationship with Workforce Solutions continued into 
the new build of the Omni Dallas hotel. As a larger hotel than 
Fort Worth, it was a greater challenge to staff effectively and 
efficiently. Workforce Solutions Greater Dallas proved to be a 
vital partner in the initial hiring events, and remained a 
valuable collaborator after the opening of the hotel. During 
our largest preopening job fair, Workforce Solutions provided 
30 volunteers, who assisted with the intake of more than 3000 
job seekers, over the course of three days.
    As a result, we hired over 250 individuals, through the 
Texas Back to Work Program and Greater Dallas Direct Referrals. 
Additionally, we hired 18 at-risk participants of the Choices 
Program, a TANF employment and training program, which assists 
in transition from welfare to work. These participants gained 
skills training, funded through the Workforce Solutions Self-
sufficiency Grant, with H.I.S. Bridgebuilders. Once again, in 
2012, Omni was honored with the Employer Award of Excellence 
for Workforce Solutions Greater Dallas.
    Workforce Solutions led us to partner with other community 
agencies, which assisted in job placement and retention, 
provided to youth exiting the foster and juvenile care system. 
In summary, through these programs and partnerships, our 
managers are empowered to treat each associate with the utmost 
care and concern, which naturally leads to caring for them as a 
valued member of the Omni family; another of our core values.
    I would urge the Committee to explore federal legislative 
funding that encourages subsidized employment programs, which 
allows for low-income individuals to receive realistic on-the-
job training, that can ultimately lead to full-time employment. 
Through the Texas Back to Work Program and other organizations 
like H.I.S. Bridgebuilders and City Square, we are able to 
train low-income individuals, to provide the tools and 
knowledge needed to be an employable, self-sufficient 
individual. Mr. Chairman, thank you for this opportunity.
    [The prepared statement of Ms. Doucet follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                ___________
                                
    Chairman BUCHANAN. Thank you, Ms. Doucet.
    Ms. Larrea, you may proceed with your testimony.

  STATEMENT OF LAURIE BOUILLION LARREA, PRESIDENT, WORKFORCE 
                    SOLUTIONS GREATER DALLAS

    Ms. LARREA. Thank you, Chairman Buchanan, Members of the 
Committee, Member Crowley. I appreciate the opportunity to 
speak this morning. I so appreciate Barbara Doucet and Omni 
joining us. I am Laurie Bouillion Larrea, President of 
Workforce Solutions Greater Dallas, which is the Workforce 
Board for Dallas City and Dallas County. 2.5 million people in 
that single county and we are blessed with an unemployment rate 
of 3.7 percent. So that means workforce is the number one issue 
on everyone's mind. Very much like Florida. We are having a 
blessing and yet a challenge. Talent is in demand. Last year 
alone, 99,000 new jobs in North Texas. That's a 13 county area. 
It's very difficult. Our options are to upskill the workers 
that we have, import workers from other states, pull youth into 
the workforce earlier, or we hunker down, educate, train, and 
bring people who are unemployed into the workforce.
    Despite the robust economy and diversity, too many people 
in Dallas remain challenged by poverty, under-employment, 
limited opportunity, and not realizing their full work 
potential. The primary customer in the Dallas model is the 
employer. We strongly believe jobs make life possible. Better 
jobs make for better lives. I've been the executive for the 
Dallas Board since 1989. I've seen a lot of things come and go. 
Cycles of poverty, cycles of public programming.
    But one thing that we believe is very true is that a 
meaningful job benefits the family far better than welfare 
benefits. We made huge strides in the workforce system in 
Texas, which most of you are very familiar with. We have the 
major five federal programs that come into a system in Texas. 
Those programs are TANF, Wagner-Peyser, the SNAP food stamp 
program, and unusually so, the Childcare program. And I'll talk 
about that a little later. And then also WIOA, Workforce 
Innovation Act. Thank you very much. That was an excellent 
change in legislation.
    These federal grants were awarded to the Texas Workforce 
Commission. And thus we create a system. A system approach in 
Texas that converts these programs into a highly visible talent 
pipeline. Specific for connecting employers to job seekers. 
Specific for those people who are not engaged in the employment 
world. In the past two years, our board has also accepted a 
challenge from the Commission to take on Adult Education. Our 
partner is the Dallas County Community College District. We 
founded Work-based Learning.
    It's very hard to incentivize people to get a GED at a time 
when the economy is as good as it is. We need the leverage of 
the employers in a work-based environment. We also specialize 
in sector-based strategies. And the Metroplex has done that for 
over 15 years, looking at our error space, our health care, all 
of those sectors that are prominent.
    The WIOA vision will be fully realized in Texas September 
1, when we integrate the employment of people with 
disabilities. That's coming to this one pipeline of 
underutilized talent that is so desperately needed by our 
employers and jobs that are needed by the people that we are 
serving. Our TANF system is a talent pipeline unto itself. We 
have divided the services into two packages, talent development 
and employer services. That is the key to a good workforce 
system.
    Despite dependence on TANF, we believe that the person 
should come through a door marked ``Job Seeker'' without the 
stigma of having been on public assistance during this time. We 
also believe that we are seeking solutions through work. Work 
teaches work. We know historically, assistance teaches 
assistance. I've been doing this for a very long period of 
time. And I can tell you, we need a solution that includes work 
and additional services. In our system, we're concentrating on 
a full work rate in Texas. So just in the two to three years 
that we've done this, we've increased participation from 31 
percent to 45 percent. And we have cut the denominator, the 
people needing services, in half.
    After securing the job, we do want to work continually with 
the participant. This is getting the Adult Education 
Certificates that they need, working with the employer to see 
that they can do the best that they can do. In terms of 
advancement, much as we have done at Omni. And we believe that 
two things must be addressed. Early child development. The only 
way to break the cycle is early child development. The three 
year old today is our workforce in 18 years. If they have not 
come through the system well, or they've been left in poor 
care, we do have an issue. Beyond that, we are looking at the 
teens. Bringing someone into the workforce at 18 just doesn't 
get it. We need to start them in jobs as early as possible.
    We have our Mayor's Summer Interns program. Mayor Rawlings 
has been very proactive in putting kids to work, but there just 
aren't enough jobs without a little public assistance. The jobs 
reward academic accomplishment with teens, provide quality 
private sector jobs, great role models, and hopefully create an 
aspirational youth that is no longer looking at dependency on 
public assistance being the only option. I thank you all so 
much for listening. And we hope to assist you in this 
perspective. It's time to make a change.
    Thank you.
    [The prepared statement of Ms. Larrea follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                ___________

    Chairman BUCHANAN. Well, thank you. And I want to thank all 
of our witnesses today for excellent testimony. Now, I will 
proceed to the question and answer session. And I will begin. 
Mr. Wilson, as you know, I've been in business for 40 years, 30 
years before I got here. And I know first-hand, and I've hired 
a lot of minorities and people that were on welfare over the 
years. And people might start at 25, and then they, because of 
the culture, our companies have been able to build--we build a 
culture where we develop and train, and move people up the 
ladder. They might start at 25 or 30, or minimum wage, and then 
they're making 80 to 100,000 today. When I look at it, a lot of 
minorities are making that kind of money locally. But what they 
need is an opportunity, they need a shot. And we need more 
employers stepping up.
    When I look at Florida, it's like deja-vu. We had the big-
time hit in 2008, as you know. '09, '10, '11, we shredded a lot 
of jobs. But it's back. I mentioned, you mentioned I think in 
your testimony a thousand a day coming to Florida. You need 
800,000 jobs. What's the Florida Chamber--more importantly, the 
business community--going to do about stepping up and making 
sure? Especially as we look at, you know, in terms of welfare. 
The number I've got is out of three that are in welfare, two 
can work. And what are we going to do about getting those two 
to work, in your opinion?
    Mr. WILSON. Thank you, Mr. Chairman. And I appreciate your 
leadership in Florida as a business leader as well. And I think 
that's indicative in your question as well. What are we going 
to do in Florida? I think the number one thing we have to think 
about is awareness. The truth is, we, as someone on the panel 
mentioned, culture. And most business leaders started as a 
small business. They actually want to grow their company. They 
want to create economic opportunity for their employees and for 
people in the community. And I can't stress enough the 
importance that hearings like this make, raising the awareness. 
It's the reason that I'm here today.
    The awareness that there are people who want jobs and need 
training and there are programs for those individuals. So 
matchmaking is one of the things that we're doing in Florida. I 
would also add, what we're doing is aligning. We have, there 
are many resources in this workforce system, some public, some 
private, that haven't always been aligned to the benefit of the 
person who needs the training and the person who needs the job. 
There are over 80 programs receiving state and federal money 
that are not very well connected. They are not aligned.
    What we're doing in Florida is through CareerSource 
Florida, which is an award-winning work force system in this 
country, we're aligning what the job-seekers need, by training 
with assistance, with what the employers need. Last year alone 
in Florida, they served over 124,000 companies and placed over 
430,000 individuals into work positions that they wouldn't have 
otherwise found without that coordination between business----
    Chairman BUCHANAN. We've gone about five minutes, so let 
me----
    Mr. WILSON. Okay.
    Chairman BUCHANAN. Thank you, Mr. Wilson. Mr. Brame, I want 
to talk to you. You know, just reading the background of the 
company, the guy, the CEO who started that company, to me is a 
visionary. It's not something you've been doing the last couple 
of years, but for 20 years you've been reaching out to the 
welfare community and others. People under-employed. And 
helping them and working with them. Hundreds of employees in 
that predicament in Grand Rapids, Michigan. What was his 
motivation and just in general, how much difference has it 
really made over the years in Grand Rapids, Michigan?
    Mr. BRAME. Actually, Mr. Fred Keller has had a huge impact 
on Cascade Engineering itself. But probably an equally large 
impact on Western Michigan and Grand Rapids community. And, you 
know, in 1973 he started this business. He wanted to create a 
business that could make money, but also treated people with 
dignity and respect. He wanted to create a culture of 
inclusion. And so someone talked about the stigma of welfare.
    And so we tried to create an environment where people want 
to be at Cascade Engineering. You talk about environment where 
people coming out of generational poverty may not have worked 
in that environment before. And so unless you give them the 
tools to be successful, they won't be successful. And one of 
the greatest things we did was, when we partnered up with DHS, 
the Department of Health and Human Services, in Michigan, they 
embedded themselves in that business so that they understood 
what we needed as a business. They became a partner for us. We 
worked together.
    So when she's out there looking at people that are on 
welfare, and she can, she understands the opportunity that 
we're providing. If a person just merely sends someone to 
Cascade Engineering without understanding the skill sets needed 
in manufacturing, they're going to fail. And so I think that's 
been one of the great things. So having an individual that 
understands inclusion, having a company that is very accepting 
of all the different types of backgrounds, and then also having 
the state understanding our business, has created a partnership 
that's allowed us to be successful.
    Chairman BUCHANAN. Well, thank you. Now, I'd like to 
recognize the distinguished gentleman, the Ranking Member, for 
any questions he might have.
    Mr. CROWLEY. Thank you, Mr. Chairman.
    Chairman BUCHANAN. I hope you're enjoying that.
    Mr. CROWLEY. I love that. I love the sound of that. Mr. 
Chairman, thank you. Thank you all for your testimony today. 
Mr. Brame, I just want to thank you for, I think, the passion 
you're bringing to your testimony. All of you do, on the front 
lines, in terms of welfare to work. So thank you for all your 
testimony today. Welfare recipients are parents. Not entirely, 
but for the most part. Often single parents at that. And 
providing childcare so that they can work was a key goal of 
both Democrats and Republicans, working in bi-partisan way, who 
supported welfare to work in 1996.
    Most states have ended up dramatically cutting TANF 
investment in childcare as part of their overall diversion 
strategy of TANF funds. And the Congressional Research Service 
estimates that only 17 percent of eligible families currently 
get childcare help at all. Dr. King, I know you're an academic, 
but we have a little bit of time. And if you could keep your 
answers as short as possible, we can get more in writing as 
well. Because I have a couple of questions for you. Can low-
wage single parents work without childcare assistance?
    Mr. KING. They can, but it's not going to stick, all right?
    Mr. CROWLEY. Not going to stick.
    Mr. KING. I mean, if we want those parents to succeed in 
the labor market. Quality childcare is terribly expensive. Even 
basic childcare, some of the more recent estimates show that 
that's about like sending a kid to college.
    Mr. CROWLEY. So in fact in some states it actually costs 
more for private childcare, or for childcare than it does for 
public universities----
    Mr. KING. That's right.
    Mr. CROWLEY [continuing]. Is your point. Is reliable 
childcare a factor--so it's safe to say that with reliable 
childcare--not just simple childcare, putting your most 
important asset somewhere for the day, but reliable good 
quality childcare, that that is a key factor as to whether or 
not an employee is a stable employee. Would you agree?
    Mr. KING. Absolutely. And I think we should understand that 
in the context of what many companies are doing, which is using 
last-minute scheduling software. And if a single mom in 
particular is trying to get their kid in good childcare, and 
they don't know when their shift is going to start until two 
hours before, they are up the creek. Yes.
    Mr. CROWLEY. Forget about severe snowstorms. From your work 
with two-generation strategies, are there other hidden costs to 
low quality childcare for families and for state and federal 
assisted programs?
    Mr. KING. Absolutely. I think if we don't do this right the 
first time, it's like the Andy Granatelli thing, right? Pay me 
now, pay me later. If we're not serving these parents and 
children at the same time, we're almost sure to see those kids 
coming back as future dependents, basically, on public 
assistance. Whether it's SNAP or it's TANF.
    Mr. CROWLEY. About those two-generation strategies, two-
generation programs often involve supports like high-quality 
pre-school. Not obviously related to parental work. Can you 
explain further why we should consider the ``treat the whole 
family'' approach even if the main goal is for the parents to 
work their way off of welfare?
    Mr. KING. So we've got wonderful evidence that's come out 
in the last several years. Burkings has produced a report. Ron 
Haskins, Sara McClanahan, Irv Garfinkle, did a nice piece on 
the future of children that shows basically, skills beget 
skills. To echo what Laurie Larrea was saying a minute ago, if 
we actually build skills for parents and kids at the same time, 
we get multiplicative effects. They're larger. They're longer 
lasting. So if parents are better educated, their kids are 
going to go on to college. We know there's a strong role 
modeling effect.
    Mr. CROWLEY. Ending the inheritance of welfare, so to 
speak?
    Mr. KING. Correct. So if you're getting welfare mom 
trained, if she's going through her education, she's at that 
very moment role modeling for her kids. And if her education 
goes up and if she earns more money when the children are 
smaller, we know that's going to pay off for those kids having 
better lives over time. And we know the social mobility stats 
in the U.S. don't look so good relative to our OECD 
competitors. So I think it's something that we, we have at our 
fingertips if we deployed the resources better, and if we took 
care of some of the wrinkles that we have. So for example, we 
don't use outcome standards in TANF. If we could align the 
standards for outcomes in TANF along the line of the Workforce 
Innovation and Opportunity Act and make adjustment 
statistically for the kind of folks we're dealing with, we 
really could bring those systems together better.
    Mr. CROWLEY. Mr. Chairman, I just want to note, there are 
27 seconds left. The gentleman has done outstanding work in 
proving that academics can testify in under five minutes.
    Mr. KING. It's not easy.
    Mr. CROWLEY. I want to thank him for that.
    Chairman BUCHANAN. Thank you. I now recognize the gentleman 
from Washington, Mr. Reichert.
    Mr. REICHERT. Thank you, Mr. Chairman. And congratulations 
on your new chairmanship and your first hearing. Thank you to 
the witnesses for being here today, and especially, thank you 
for all the work that you do to help those in need in trying to 
find employment, and bring their families to a place where they 
can hope and have hope for the future, for their children and 
for their families. Mr. Brame, thank you for sharing the story 
of Amy.
    I think that each one of us on the dais and each of you 
have a story to share too, I'm sure. We all do. Sometimes I 
share mine. And I notice there's some young people in the back 
of the room, seated behind you, listening to the testimony, 
which is encouraging today, for all of you to be here and 
listen to how Congress works or maybe doesn't work.
    We're trying today. And just for your information, I look 
like I've been here 40 years, but I've only been here 12. Well, 
11 and a half. I was a police officer, sheriff's deputy, for 33 
years, in Seattle Washington, Kent County Sheriff's. Oldest of 
seven kids. And I've seen everything you could see, possibly 
see, in my 33 years in law enforcement. And I really get what 
you're talking about today as far as employment and helping 
those people who are on the street, or in between on the street 
and getting a job, or getting job and moving on and upward.
    You know, we had a witness in here not too long ago who was 
a front line employee. New terminology for the young people. 
That's a new employee, front line employee for Goodwill, who 
now is a manager there. And all due to someone taking her in, 
giving her opportunities, training and education.
    I recently had the chance to visit Van Doren Sales, and 
it's in East Wanache. Some people say ``Win-a-chee.'' But it's 
East Wanache, Washington State. It's a small town in the 
central part of the state. And they're a family-owned company 
with about 136 employees, that design and build fruit and fruit 
container handling equipment. Their company motto is ``Quality 
Pays.'' But one thing that they know for sure is, the number 
one resource in their business is what, people. And they take 
care of their people through training and education and OJT, on 
the job training.
    And they have seen, of course, a rise in their 
productivity. Happier community. They participate in the 
community. All those things that you have all talked about. And 
I just wanted to turn really quickly to Ms. Doucet and just 
have you talk a little bit more about identifying talent 
internally and the returns on your investments when you do 
that. Not only the financial piece, but the human investment.
    Ms. DOUCET. One of the things with Omni hotels is that we 
value our communities, the communities that we are in. So being 
able to build a partnership, to give back to those communities 
and develop the partnership with many organizations. So while 
we worked a great deal with Workforce Solutions, we also 
partnered with multiple other agencies to try and build a 
network to have access to individuals who are looking for 
employment. And how we help them grow and development. And 
similar to the situation given earlier as well, we have many 
stories of individuals who started at entry level positions and 
have been able to move into leadership roles.
    Mr. REICHERT. Well, thank you for your hard work. And I 
hope that continues too. And Ms. Larrea, could you also expand 
on your idea of how that all works together? When you give 
those opportunities to people, what's the returned resources, 
the human resource? We get the financial peace, but in 
providing that opportunity for families?
    Ms. LARREA. Thank you, sir. We have also done, as Barbara 
mentioned, the community aspect of this. Many people still live 
in poverty in our community. I've noticed that--and Barbara 
named H.I.S. Bridgebuilders, City Square. Most recently, we 
have new partnerships coming. Wrap-around services, coming from 
the faith-based and non-profit communities, doing things that 
we cannot necessarily do.
    Mr. REICHERT. Good.
    Ms. LARREA. That engagement in the solution has been as 
valuable as the project itself and the public investment. 
Having people come together with a common cause. That common 
cause is community, restoring what we need. Invaluable. You 
can't put a price on that one.
    Mr. REICHERT. Right.
    Ms. LARREA. And ownership. Ownership of the solution as a 
community coming together. So we've been very lucky. People are 
the asset. And if you don't, you know--I think Florida said it. 
It's not about taxes anymore, it's about whether or not you can 
find the work for it, where you're going to move your company, 
where you're going to expand your company. We've been very, 
very lucky, and yet I'm a little concerned about not having 
enough people.
    Mr. REICHERT. I yield back. Thank you.
    Chairman BUCHANAN. Thank you. Mr. Davis, you're now 
recognized.
    Mr. DAVIS. Thank you very much, Mr. Chairman. And I too 
want to congratulate you on the chairmanship of this very 
important committee, of which I'm pleased to be a part of. I 
want to thank all of our witnesses for coming. I worked at one 
juncture during my life as a training director, with the 
purpose of trying to bring low-income individuals into the 
medical field. So I know the challenges that you face, and I 
know the difficulty of your work.
    Mr. King, I represent much of the inner city part of 
Chicago. And so I see first-hand many individuals, low-income, 
who desperately would like to have a good job so that they 
could work and take care of their families. But they often lack 
the skills and training or education necessary to achieve this. 
For this reason, my Responsible Fatherhood bill proposes to 
modernize the TANF Contingency Fund to provide additional 
employment and training opportunities by focusing the 
Contingency Fund, to fund sectorial training, coupled with 
other structured TANF reforms. This re-design of the 
Contingency Fund promises to make quality education and 
training more available to the TANF recipients. Could you speak 
to the success of such programs, and what they've done?
    Mr. KING. So if we look at the emerging evidence on 
sectoral and career pathway programs, again we only have about 
six, seven studies at this point. HHS is actually funding a 
very large evaluation of the Health Professions Opportunity 
Grant Program. So we'll have more information in a couple of 
years down the road. By the way, our Tulsa Career Advance 
Program, which serves mainly the parents of Head Start, early 
Head Start kids, is part of that.
    But the early evidence we have from random assignment based 
studies, quasi-experiments, including the Capital IDEA slide 
that I showed you, all of those programs are showing very 
strong impacts on employment, on retention, on earnings 
increases. We also see reductions in TANF receipt, in receipt 
of unemployment insurance. But we also see that for many of 
these parents going through, they then become eligible for the 
first tier safety net, which is their Unemployment Insurance 
System. And that is, again, a better place to stop than 
necessarily going on TANF.
    So these programs seem to be working the way the theories 
suggest they should. And again, I--we're going to learn more 
about that down the road. The other thing I would say is that 
the return on investment from those looks better than the long-
term return on stocks. And forget about the, the recent stock 
market worries. I'm talking about the long term.
    Mr. DAVIS. Thank you.
    Mr. KING. So it's a good investment. It beats my IRAs.
    Mr. DAVIS. Thank you very much. And Mr. Brame, let me just 
tell you, I am intrigued by the work that Cascades Engineering 
is doing, and compliment you and all of those who work at your 
company. You mentioned removing barriers. And one of the groups 
that I'm particularly concerned about in terms of barriers are 
individuals with criminal backgrounds. Could you amplify a bit 
on how you handle that, and what you do with it?
    Mr. BRAME. You are absolutely correct. And particularly an 
African American community, between poverty and issues of 
criminal backgrounds are two huge barriers. So one of the 
things we've done in Cascade Engineering is, first of all, we 
have policies that allow individuals with criminal backgrounds 
to apply at Cascade Engineering. And we've moved the box. 
Meaning that when they fill out that application, we don't ask 
that question right off the bat. We determine whether we like 
that person. That person is qualified.
    And then later on, we ask the individual about his or her 
criminal background. And the second thing that we do is that I 
as the Executive Vice President, I make the determination 
whether that individual would be hired. It's been our 
experience that when you have middle level managers making that 
determination, they might think, ``You know what? This might 
not look good for me if something goes wrong.'' And so at 
Cascade Engineering, an executive, a VP makes that call.
    And we also allow that individual to make a determination 
whether he or she will tell other employees about their 
criminal background. We don't out those individuals, so they 
can keep that to themselves. We have many individuals that are 
mentors to others and talk about their criminal background. We 
have a lot of individuals that choose to keep that to 
themselves. And so we allow them to make that decision.
    Mr. DAVIS. Thank you very much, and I really appreciate the 
effort. And I think that is an excellent approach. And I yield 
back, Mr. Chairman.
    Chairman BUCHANAN. Thank you. Mr. Rice, you're recognized.
    Mr. RICE. Thank you, Mr. Chairman. And thank you to all the 
members of the panel for being here. I just really love hearing 
your success stories. I think the best welfare to work program 
is a good, healthy economy, like you have in Florida, like you 
have in Texas. Looking at the poverty rates, you know, we were 
about where we are, around 15 percent in the country in the 
early 90s. Then it went down to about 12 percent and stayed 
there for a long time. And since 2008, it's been back up around 
15 percent. So I think the best thing that we can do here in 
Washington is to do what we can to get our economy going. And 
the best way to do that is make this country competitive. But 
that being said, so many things you all have said intrigue me.
    You know, I come from Myrtle Beach, South Carolina, which 
has a lot of similarities to Florida. And the tourism economy 
has a lot of similarities, or same issues, with Omni hotels. 
And I hear employers all the time in my hometown tell me that 
they simply cannot fully staff. I had a lady who has 3000 hotel 
rooms in Myrtle Beach tell me that they needed literally 
hundreds of people.
    Now, one problem we've got that you probably don't have in 
Dallas and less so in Florida, is we're a little more seasonal. 
And I'd love to have your advice on how--we actually arranged 
for a job fair in a rural community. Had you know, a couple 
hundred people show up. Arranged for buses to go back and 
forth. And it was, it worked well, but it just gradually 
diminished. How do we keep that fire going, Ms. Larrea?
    Ms. LARREA. That is an interesting challenge. But I started 
my career down in Southeast Texas, on the coast. So I know very 
well about getting people to stick, getting the jobs to stick. 
I think one of the things that we spoke about was early 
learning, early education becoming part of the work for kids, 
teenagers coming to the job. Do you have an aggressive teen 
program? If you don't, you need one, where the teens would 
become familiar with the seasonal work and buy into that, 
become part. That becomes just a mainstay. We have it with Six 
Flags. Kids know when those jobs open, and they make their way 
there. The other would be job sharing. Finding a compatible 
off-season job so that people don't have to pick a job for a 
season. They actually know I work ``here,'' and then I shift to 
``this job''. It's bringing it to them in a way that they can 
organize. If they have good organizational skills, they 
probably wouldn't suffer from unemployment and poverty. They 
need that networking and that, the explaining it to them.
    Mr. RICE. Okay. Thank you. And I only have a limited time. 
You and I could talk about this for a hour. But I want to have 
Ms. Doucet--is that how you say your name?
    Ms. DOUCET. Ms. Doucet.
    Mr. RICE. Doucet. These jobs that we're talking about, with 
the seasonal hotels in Myrtle Beach and also with Omni in 
Dallas, I assume we're talking about like housekeeping and 
linen and all these types of things. Are you paying minimum 
wage, or are you having to go above minimum wage to attract 
these people?
    Ms. DOUCET. So we make sure that we are competitive in the 
markets and going through to assure our associates are----
    Mr. RICE. But with a three percent unemployment rate, I 
imagine you're well above minimum wage. Am I----
    Ms. DOUCET. We are above minimum wage in our properties. 
And going through for most of those areas. But it is something 
that we stay competitive with what the trend in that 
marketplace is. And as you were mentioning earlier, trying to 
get individuals in, there are so many--yes?
    Mr. RICE. Does the government, does the government force 
you to pay over minimum wage, or you do that in response to the 
competition and the need for these people?
    Ms. DOUCET. We ensure that we are competitive to the 
salaries. So we make that decision based on our wage survey.
    Mr. RICE. Thank you, ma'am. Thank you.
    Ms. DOUCET. Okay.
    Mr. RICE. Mr. Brame, I want your advice on this. We have in 
Florence, South Carolina, which is a little more industrial, we 
have a great technical school. The Southern Institute of 
Manufacturing and Technology. And they have something called a 
computerized digital machining program. And they can only 
take--excuse me--80 kids a year. And it's a two-year program. 
And they have two problems. One, they can only get 40 kids a 
year to sign up for it. And two, they don't finish the program. 
The ones that do--because there's such a need for this--that 
the people get hired after one year, making 60 to 80,000 a 
year. What would be your advice on A, how they can attract, and 
B, retain these kids, when there's such a dramatic need for it?
    Mr. BRAME. One problem we're having in Western Michigan is 
that manufacturing is not sexy. If you talk to individuals' 
parents, and you ask them, you know, should I, should I go to 
college right away or should I try to get a skill and go into 
the manufacturing field, then you know, 90 percent of the time, 
a parent will say, ``You know what, you might as well go to 
college.'' But in Western Michigan in particular, we have good 
paying jobs that a person can come out an hourly rate making 20 
plus dollars and hour, or a salary rate, making a significant 
income.
    So if the problem is, that they're getting hired before 
they finish and they're getting those jobs, I'm not sure that's 
the, necessarily a problem. It might be a good thing. Because 
maybe those skills, maybe that training is not necessarily what 
they need. But I would argue that you need to go back upstream, 
talk to schools, talk to parents. Make sure they understand 
that manufacturing is a valuable job in this community, and 
make it more sexy.
    Mr. RICE. Thank you. I yield back my negative 40 seconds.
    Chairman BUCHANAN. Thank you. Mr. Reed, you're recognized.
    Mr. REED. Well, thank you, Chairman, and thank you to our 
panel for this testimony. I am all in when we come to reforming 
our welfare program, TANF, all the various programs across the 
way. Because they're just not working. We've had years and 
decades of experience showing that throwing cash at this 
problem is not going to solve this problem. We need to do more. 
We need to do better. And so I am intrigued by some different 
proposals out there.
    One of the existing proposals that's of interest to me, my 
former predecessor and a mentor of mine, a guy by the name of 
Amo Hoten, who sat on this Committee, was a proud sponsor and a 
creator of the Work Opportunity Tax Credit Program. Can you 
give me--and what that really is designed to do is to stand 
with our employers in the sense of trying to provide an 
opportunity by way of a job to individuals that are facing 
barriers to going into employment. Any feedback on the WOTC 
program that you could offer us that--anyone--to reform it, to 
make it more of the 21st century improvements that we could do 
on the Work Opportunity Tax Credit Program that you may have 
experienced? Anyone up there want to jump at that? All right, 
Mr. King. I'll give you a little time. Go ahead.
    Mr. KING. All right. I think the way to think about WOTC is 
it's a complement to other things, not necessarily a 
replacement.
    Mr. REED. Perfect.
    Mr. KING. So it can be a good add-on at the end, but I 
don't think there's any replacement for providing a talented 
employee to take the job first. And what we don't want to do is 
to basically stigmatize. We have research that shows that in 
many cases, if a recipient's going out with WOTC, the employers 
go, ``Whoops, damaged good.'' We don't want to do that. So I 
think the first thing to sell is talent, and then you follow up 
with the tax credit.
    Mr. REED. Okay, that's good input. So we'll continue to 
work on that. One bigger concept that I want to work on and 
focus on from the panel, the whole concept of the welfare 
cliff. The whole concept of you, you go back to work and you 
hit this penalty when you get to a certain level, a threshold. 
And essentially, what I've heard, talking to folks out in the 
real world, talking to people in Western New York, is that 
there is a real penalty that is either--it's in reality and it 
is recognized by people that are in the workforce.
    I've had employers, in my private practice, before I came 
to Congress, I had an employee refuse a holiday bonus because 
her, her assigned worker at the county office told her, ``You 
take that bonus, you lose your penalties.'' How can that be 
America? How can that be America? That I had someone tell me 
they're going to refuse their holiday bonus because they're 
being told by their government representative, ``You will lose 
your benefit.'' We have to do better than that. So I'm very 
intrigued on concepts from the panel. And we'll start with Mr. 
Wilson and then Ms. Larrea, if I'm saying it correctly. How do 
we reform that welfare cliff? How do we attack that welfare 
cliff to stand with the American work ethic, to stand with 
individuals that are getting back on their feet? And what can 
we do? What would be your recommended course in that action? 
Mr. Wilson?
    Mr. WILSON. Thank you very much for the question. I think 
you're absolutely over the target of one of the biggest hurdles 
that we have to uncover. The people who know the most about 
that cliff are the people who are burdened by it right now. The 
other 80 percent of America doesn't know what you're talking 
about. So to me the number one thing that we can do is to use 
our collective ability to educate all of America about what 
this cliff is, and then create a sliding scale where employers 
and those stuck in generational poverty know exactly what they 
can expect from their government and from their private 
employer. This is a mis-information mis-match in my opinion. 
The resources are there. People don't know about it. And I 
think it can be fixed by awareness and a sliding scale of 
support.
    Mr. REED. Perfect. Ms. Larrea.
    Ms. LARREA. I would strongly support the sliding scale 
conversation. I think what we neglect to recognize is there is 
a very large cavity between benefits and still living in 
poverty and under-employment. And we seem to think you just 
jump over that gap. Well, that gap is rather large. That's why 
we have such an increase in food stamp rolls that are not part 
of public welfare. So I like the idea of a sliding scale.
    Mr. REED. I appreciate it. And when we're talking sliding 
scale, obviously we're talking about sharing the paycheck that 
an individual receives, they can keep a portion of that 
paycheck, and then the other resources get returned to the 
government operations. Because one of the things that resonates 
with me--and you said it--work teaches work, assistance teaches 
assistance. And I know an eight year old that I was a law 
guardian for, and I won't tell that story again. But 
essentially with my 15 and 17 year old at home, they only do 
about two percent of what I tell them to do. But 98 percent of 
what they observe. And so if we can get people back working, do 
you agree--like Mr. Brame, the story of Amy----
    Mr. BRAME. Yes.
    Mr. REED. Her kids said, ``It was you, mom, inspired me to 
go to college?''
    Mr. BRAME. Yes.
    Mr. REED. That's what I'm trying to do here in Washington, 
D.C. So I would--as I'm out of time, any input you have where 
we can reward that American work ethic, get people back on 
their two feet, and break that generational cycle of poverty 
that we see? With that I yield back.
    Mr. BRAME. And with that story of Amy, it wasn't just in 
her case, not just getting a bonus. She had to deal with not 
taking promotions. That's a more long-term problem. You choose 
to stay in a position that pays you x amount of dollars, 
refusing to take these steps. 15 years from now, think about 
that money compound, and where you could be. You could be a 
manager, you could be a leader, and you choose not to do that, 
because of the cliff.
    Mr. REED. Amen, Mr. Brame.
    Chairman BUCHANAN. Thank you. Mr. Dold, you're recognized.
    Mr. DOLD. Thank you, Mr. Chairman. And now, I too want to 
thank the panel. And I just want to pick up where my friend Mr. 
Reed was. And we need to break this cycle of poverty. And 
frankly, the most effective thing that we can do for someone 
that's in poverty is find a job. And I come from a district in 
Northern Illinois. And we are a heavy manufacturing district. 
And I can tell you time and again, the number of employers that 
say, ``I've got good jobs available. I can't find people 
qualified to take those jobs.''
    Mr. Wilson, you were talking about the idea that a quality 
education is the key in this process. And yet we need to make 
sure that those people get a chance to be educated. One of the 
things that I'm working on here in the Congress is a pilot 
program to make sure that employers that are doing this 
training program, perhaps maybe the government pays half the 
salary to kind of offset that training mechanism. And idea, so 
that the employer--or the employee has a chance to prove 
themselves. Mr. Brame, I'm fascinated by what Cascade 
Engineering is doing, and want to applaud you for it.
    Mr. BRAME. Thank you.
    Mr. DOLD. What's the secret sauce that Joyce has? Joyce is, 
she's the person that DHS, that's been hired----
    Mr. BRAME. Yes.
    Mr. DOLD [continuing]. By Cascade?
    Mr. BRAME. Yes.
    Mr. DOLD. That's embedded in the company?
    Mr. BRAME. Yes.
    Mr. DOLD. What is she doing that's different than an HR 
manager?
    Mr. BRAME. Well, if you think about it, there are questions 
that I as an employer shouldn't be asking an employee. But she 
can go in and resolve those issues for her. An issue of 
childcare, issues of transportation, issues personal to her 
life. On the extreme, issues of domestic violence. These are 
things that she can go in and get support for this individual, 
that I can't do.
    Mr. DOLD. Mr. Brame, you're hitting on incredible issues 
that employers are trying to deal with right now. So she can go 
ahead and do these types of things. So the people that are 
watching this hearing right now from around the country, 
employers that are watching, they want to know what is it that 
they can do? How can they replicate this? Because we want to be 
able to knock down barriers for those people to be able to see 
success in the workplace. How are they able to do it?
    Mr. BRAME. I think having conversations with the 
appropriate state agency, we want the same things. I think 
sometimes we don't realize that we do want the same things. So 
we have these conversations. We go aha. We're trying to, in our 
case, find educated employees or find employees that can do 
great jobs. She wants to take people off of welfare. How can we 
meet in the middle? How can we have a win-win, and we're able 
to do that effectively? By having these conversations, setting 
up clear criteria, and us both having training programs to make 
sure these individuals are successful.
    Mr. DOLD. Ms. Larrea, again, you talked about work 
encourages work, or work teaches work, and assistance teaches 
assistance. And the biggest thing to breaking that cycle of 
poverty you said was early childhood development. How early do 
we need to go?
    Ms. LARREA. Zero to three.
    Mr. DOLD. Zero to three. Okay. So early childhood education 
and an investment, Head Start education. And which, again, I 
was pleased to see the Congress do, certainly during the 
budget, an increase in Head Start, I think of 570 million 
dollars this year. One of the things that I'm interested in, 
would be interested in your take--there's a high school that is 
doing things outside of the box back in my district. It's 
Crystal Ray School in Wakegan. And they require their students, 
freshmen through senior in high school, to actually work one 
day out in the workforce.
    So a company like Cascade Engineering might say, ``I'm 
willing to hire one.'' And when they say they're willing to 
hire one, that means they get a freshman, a sophomore, a junior 
and a senior, and then one of them will rotate back on the 
fifth day.
    Now, what that teaches them is not only does it give them 
work ethic, not only do they have mentors in that new place of 
employment, but it gives them an enormous leg up when it comes 
time to going into the workforce. Are you experiencing anything 
like that down in Dallas?
    Ms. LARREA. Absolutely. I wish we had a lot more resources 
to do it. But our employer partners, and I know Omni is a 
partner in the Meers Fellowship Program. Kids, kids are 
transformed by work. They are. They see a future that isn't at 
home. It's different.
    Mr. DOLD. How can we better do that, in terms of creating 
that environment where we can get more people into the 
workforce? Ms. Doucet, do you have an idea on that?
    Ms. DOUCET. Yes. I think that actually encouraging that 
partnership, we invite a lot of middle schools and high schools 
to come to our facilities and bring their classes. And it gives 
them an opportunity to see the heart of the house as well as 
the front of the house, and explore avenues they didn't even 
anticipate they would be able to look into, for future job 
growth. We do get a lot of interest from our students that way, 
in building those relationships very early.
    Mr. DOLD. Ms. Larrea, I want to go back to you for a 
second. One of the things that I hear from a lot of folks is 
again, that they had an issue with the law, they're having a 
tough time even breaking through that first interview. What 
have you been able to do down in Dallas to be able to help 
those? Because again, they might have made a bad decision. We 
want to make sure they can get back on their feet. How do we 
best enable and help them?
    Ms. LARREA. A lot of partnership and advocacy, particularly 
with government working with business. But we also are now 
taking Workforce into the jails. Into the Dallas County Jails. 
Teaching GED and ESL inside the jails and then hopefully 
bringing them into the community college system for skills. 
Skills will possibly overshadow an offense, in this kind of 
competitive market.
    Mr. DOLD. Great. Thank you so much. My time's expired.
    Chairman BUCHANAN. Thank you. Mr. Smith, you're recognized.
    Mr. SMITH. Thank you, Mr. Chairman. Mr. Chairman, I'm 
excited about this hearing, because we're exploring the value 
of first work, and then also the engagement with government 
programs and also private employers. The key piece there is the 
engagement. We've seen, as you all have testified, the positive 
results with engagement, in those too. And I've been 
particularly pretty impressed with the testimony from Mr. Brame 
and also Ms. Larrea, in regards to the boots on the ground, I 
guess, and actually seeing first hand of people getting front 
line jobs. And a lack of work or limited work as we all know is 
the number one cause of poverty.
    And representing a Congressional district by some that 
would say it's the 18th poorest in the country, this is 
something that is very important to me. Mr. Brame, what I would 
like to ask you, it seems that the Michigan Department of Human 
Services really values your company's partnership to help them 
move individuals off of welfare and into full-time employment. 
Was that always the way?
    Mr. BRAME. We began these conversations for--and this was 
the mid-60s, and we, I think we piqued their interest. I think 
they weren't used to employers coming to them and saying, 
``Hey, how can we work together?'' I think in the beginning, we 
had to work through some issues, because they weren't used to 
being so connected to business.
    But since the late 1990s, we've had great connections with 
their leadership. We have great connections locally and even 
throughout the state. And so we're able to effectively create 
and move these programs, and they've been able to expand these 
programs to other areas. So in the beginning, it was just a 
little awkward, because they weren't used to it, but they were 
very receptive, and it's grown ever since.
    Mr. SMITH. So it was awkward. Did you--did Cascade have to 
persuade DHS to be involved, or just they had to get----
    Mr. BRAME. Yes. For example, when we were discussing moving 
the social worker to our facility, you know, there wasn't a 
process for making that happen. And so you had to ask all these 
questions. ``Well, can you do it or can't you do it?'' 
Something that's been so impactful in our program, in the 
beginning was like, ``We just don't do that.'' And so we began 
to say, ``Well, why don't you do that?'' And they asked the 
question, ``Would it be more impactful if she was there?'' 
``Yes.'' And so sometimes we have to ask these extra questions 
to change their procedures and policies.
    Mr. SMITH. What advice would you give other states who are 
trying to work with their Human Service Agencies that may be a 
little apprehensive about it?
    Mr. BRAME. I would suggest that if social workers go out 
and actually spend time with businesses. Actually go in and see 
what the businesses are doing. Understand what their needs are. 
I think that's, sometimes that's the biggest disconnect. When 
you have a social agency trying to provide employment to 
someone or trying to spend dollars of a specific program, and 
they don't know what the employers need or want. I think asking 
the employers what they need, understanding what they need, 
will cause programs to be much more successful.
    Mr. SMITH. Thank you, Mr. Chairman.
    Chairman BUCHANAN. Thank you. Ms. Noem, you're recognized.
    Mrs. NOEM. Thank you. Mr. Wilson, I was reading your 
testimony. I was struck by your description of a lot of your 
significant challenges that you've faced in Florida, and 
especially as it relates to generational poverty. Because 
although the Bureau of Labor Statistics says that South Dakota 
has the second lowest unemployment rate in the nation, at 2.9 
percent, we still have portions of the state that live in 
generational poverty. And some of the challenges that you 
specifically discussed had to do with housing and access to 
transportation. And those are some of the basic needs that we 
face as well.
    Some of these areas, you know, obviously, are in a 
situation where they're quite remote and rural areas, which 
might be a little different than what you've faced, but I'd 
like you to expand a little bit on some of the solutions that 
you pursued that might be useful not just in urban areas but 
also rural areas, on addressing those challenges. And also 
building the relationships to help lift people out of 
generational poverty. That's definitely what we see programs 
doing in the parts of our state that are dealing with high 
unemployment rates. Some of my tribes, where they're located, 
have been in 80 to 90 percent unemployment rates for 
generations.
    Mr. WILSON. Yes.
    Mrs. NOEM. And it's become the norm, and not--and the state 
is looking for solutions. I'm looking for solutions, on how we 
can build relationships between the private sector and programs 
that already exist, to change them so that they truly do lift 
people out of these situations. Could you give some more 
feedback on things that have worked?
    Mr. WILSON. I certainly will. Thank you very much for the 
question and for the observation. It's my perspective that most 
business leaders actually want to do the right thing. And my 
colleague on the panel today talked about what they're doing in 
Michigan. Most companies in America are not allowed to do that. 
You think of lawsuit abuse reform. You think of the 
regulations. Companies want to do the right thing. And 
sometimes government rules and regulations actually are a dis-
incentive to doing the right thing. I can't stress enough the 
importance of awareness of this problem.
    As I mentioned before, most people in America have no idea 
what generational poverty is, and that these people are born 
into this. And most people would have no idea that half of the 
people born into generational poverty never exit it, because 
they don't know what opportunities are out there. So whether 
it's re-thinking the way we provide services to people who are 
looking for employment--they need transportation, they need 
healthcare, they need training. I think my colleague actually 
said it better than me.
    If we can focus the thinking to outcome based resources, 
let's focus on the outcome of the parent and the outcome of 
that child. And put the adults--everybody providing services in 
the back seat so to speak. And let's focus on that employer, 
the parent and the person who's stuck in generational poverty. 
The rest of it is easy to figure out. I think we've been 
focusing too much on getting resources to programs and places.
    Mrs. NOEM. So do we need the flexibility for each 
individual situation? So we have to look at that individual 
that is on programs today, what would address their situation? 
And then at that point, does the program need to be flexible at 
the state level, for the state to address? Because it's very 
hard for us in Washington, D.C. to decide how a program should 
function. I think that's where we see the restrictions that 
don't allow it to be formulated in a manner that can be fixed 
for each individual situation.
    Mr. WILSON. Yeah, thank you for the question. Yeah, I 
believe that in Washington, we can set a national goal of 
ending generational poverty in 10 years. And then I think we 
can say to states and to local governments, ``You come up with 
a solution that works best for the people in your community, 
for the employers in your community.'' And let's make sure the 
resources are outcome based. In our state, for example, we have 
20 million residents. We've made it a priority for low-income 
individuals in Florida to essentially be able to have school 
choice, through something called the--it's a miracle in my 
opinion. Something called the Tax Credit Scholarship Program. 
These kids' lives and their families lives are being changed 
because----
    Mrs. NOEM. Did you base that off of annual income? How did 
you----
    Mr. WILSON. That's right.
    Mrs. NOEM [continuing]. Qualify?
    Mr. WILSON. That's right, yeah, it's income based.
    Mrs. NOEM. Okay.
    Mr. WILSON. And it's a huge success story. Several states 
are now implementing that. It's related to this conversation. I 
would encourage you to look at it.
    Mrs. NOEM. Any other examples you could give us of 
extremely successful programs that you feel like would really 
work? And not just in urban areas. I'm thinking immediately 
about your tax credit solution for school choice would be 
difficult in a rural area, where the only school they might 
have access to is, within 20 miles, is that school. But beyond 
that, for that flexibility in a program, that would work in a 
rural area as well, is there one that comes to the top of your 
mind that might work?
    Mr. WILSON. Yeah, thank you. On the subject of education, 
we also have America's largest virtual school program, called 
the Florida Virtual School Program. It is so excellent that my 
own kids have gone through our Virtual School Program. Although 
they certainly could go to a great school, a public school, if 
they wanted to. So virtual schooling, school choice, these are 
essential. They help solve some of the challenges of childcare. 
They help solve access. They help people who, because of their 
zip code, may not otherwise have access to excellence in 
education.
    Mrs. NOEM. Okay. Thank you. Thank you, Mr. Chairman.
    Chairman BUCHANAN. I'd like to thank all of our witnesses 
for appearing before us today. Today's hearing was an important 
step as we think about the future, welfare reforms and getting 
the incentives right for good outcomes. Employers are often 
overlooked partners, when we think about helping families out 
of poverty. Including them in this conversation is good for 
them. It's good for the recipient, it's good for the community, 
and it's good for the taxpayers.
    As I looked at some of this data myself, two out of three 
that are in welfare would like a job and like an opportunity, 
in the state of Florida, and I'm sure, throughout the country. 
In our state, we need them and they need an opportunity. And we 
need to find a way where corporate America, small businesses, 
can come together with their local community in terms of 
providing it. Please be advised that members will have two 
weeks to submit their written questions to be answered later in 
writing. Those questions and your answers will be made part of 
the formal hearing today. With that, the Subcommittee will 
adjourn.
    [Whereupon, at 11:25 a.m., the Subcommittee was adjourned.]
    [Supplemental witness material follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                ___________

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
